      Department of Homeland Security



     Information Technology Management Letter for the
    Federal Emergency Management Agency Component
       of the FY 2012 Department of Homeland Security
                  Financial Statement Audit




OIG-13-64                                      April 2013

                         OFFICE OF INSPECTOR GENERAL
                             Department of Homeland Security
                             Washington, DC 20528 / www.oig.dhs.gov




                                     April 4, 2013

MEMORANDUM FOR:             Ken Murphy
                            Acting Chief Information Officer
                            Federal Emergency Management Agency

                            Edward Johnson
                            Chief Financial Officer
                            Federal Emergency Management Agency

FROM:                        Frank Deffer
                             Assistant Inspector General
                             Office of Information Technology Audits

SUBJECT:                     InformationfTechnologyfManagementfLetterfforfthef
                             FederalfEmergencyfManagementfAgencyfComponentfoff
                             thefFYf2012fDepartmentfoffHomelandfSecurityfFinancialf
                             StatementfAuditf

Attached for your action is our final report, InformationfTechnologyfManagementfLetterf
forfthefFederalfEmergencyfManagementfAgencyfComponentfoffthefFYf2012fDepartmentf
offHomelandfSecurityfFinancialfStatementfAudit.ffThe independent accounting firm
KPMG LLP (KPMG) performed the audit of Department of Homeland Security (DHS)
financial statements as of September 30, 2012, and prepared this information
technology (IT) management letter.ff

KPMG is responsible for the attached IT management letter dated December 20, 2012,
and the conclusion expressed in it. We do not express an opinion on DHS’ financial
statements or internal controls or conclusions on compliance with laws and regulations.
The DHS management concurred with all recommendations.

Consistent with our responsibility under the InspectorfGeneralfAct, we are providing
copies of our report to appropriate congressional committees with oversight and
appropriation responsibility over the Department of Homeland Security. We will post
the report on our website for public dissemination.

Please call me with any questions, or your staff may contact Sharon Huiswoud, Director,
Information Systems Audit Division, at (202) 254-5451.
                                 KPMG LLP
                                 Suite 12000
                                 1801 K Street, NW
                                 Washington, DC 20006




April 2, 2013

Inspector General
U.S. Department of Homeland Security

Acting Chief Information Officer and
Chief Financial Officer
U.S. Federal Emergency Management Agency

We have audited the balance sheet of the U.S. Department of Homeland Security (DHS or
Department) as of September 30, 2012, and the related statements of net cost, changes in net
position, and custodial activity, and combined statement of budgetary resources for the year
then ended (referred to as the “fiscal year (FY) 2012 financial statements”). We were also
engaged to audit the Department’s internal control over financial reporting of the FY 2012
financial statements. The objective of our audit engagement was to express an opinion on the
fair presentation of the FY 2012 financial statements and the effectiveness of internal control
over financial reporting of the FY 2012 financial statements.
In accordance with Government Auditing Standards, our Independent Auditors’ Report, dated
November 14, 2012, included internal control deficiencies identified during our audit
engagement that, in aggregate, represented a material weakness in information technology (IT)
controls and financial system functionality at the DHS Department-wide level. This letter
represents the separate limited distribution report mentioned in that report, of matters related to
the Federal Emergency Management Agency (FEMA).
During our audit engagement, we noted certain matters in the areas of access controls,
configuration management, security management, contingency planning, and segregation of
duties with respect to FEMA’s financial systems general IT controls (GITC) which we believe
contribute to a DHS Department-wide material weakness in IT controls and financial system
functionality. These matters are described in the General IT Control Findings and
Recommendations section of this letter.
The comments described herein have been discussed with the appropriate members of
management, or communicated through a Notice of Finding and Recommendation (NFR), and
are intended For Official Use Only. We aim to use our knowledge of DHS’ organization gained
during our audit to engagement make comments and suggestions that we hope will be useful to
you. We have not considered internal control since the date of our Independent Auditors’ Report.
The Table of Contents on the next page identifies each section of the letter. We have provided a
description of key FEMA financial systems within the scope of the FY 2012 DHS financial
statement audit engagement in Appendix A; a description of each internal control finding in
Appendix B; and the current status of the prior year NFRs in Appendix C. Our comments
related to financial management and reporting internal controls (comments not related to IT)
have been presented in a separate letter to the Office of Inspector General (OIG) and the DHS
Chief Financial Officer.




                                KPMG LLP is a Delaware limited liability partnership,
                                the U.S. member firm of KPMG International Cooperative
                                (“KPMG International”), a Swiss entity.
This report is intended solely for the information and use of DHS management, DHS OIG, U.S.
Office of Management and Budget, U.S. Government Accountability Office (GAO), and the
U.S. Congress, and is not intended to be and should not be used by anyone other than these
specified parties.


Very truly yours,
                               Department of Homeland Security

                           Federal Emergency Management Agency

                           Information Technology Management Letter
                                      September 30, 2012

                INFORMATION TECHNOLOGY MANAGEMENT LETTER

                                       TABLE OF CONTENTS

                                                                                           Page

Objective, Scope, and Approach                                                              1

Summary of Findings and Recommendations                                                     2

General IT Control Findings and Recommendations                                             4

   Findings                                                                                 4

       Configuration Management                                                             4

       Security Management                                                                  5

             After – Hours Physical Security Testing                                        5

       Access Controls                                                                      6

       Segregation of Duties                                                                7

      Contingency Planning                                                                  7

   Recommendations                                                                          7

       Configuration Management                                                             7

       Security Management                                                                  8

       Access Controls                                                                      8

       Contingency Planning                                                                 9

Application Controls                                                                       11


                                           APPENDICES

Appendix                                        Subject                                    Page

           Description of Key FEMA Financial Systems and IT Infrastructure within the
   A                                                                                       12

           Scope of the FY 2012 DHS Financial Statement Audit Engagement

   B       FY 2012 Notices of IT Findings and Recommendations at FEMA                      16

           Status of Prior Year Notices of Findings and Recommendations and Comparison 

   C                                                                                       21

           to Current Year Notices of Findings and Recommendations at FEMA




             Information Technology Management Letter for the FEMA Component
                        of the FY 2012 DHS Financial Statement Audit
                                 Department of Homeland Security

                             Federal Emergency Management Agency

                             Information Technology Management Letter
                                        September 30, 2012

                            OBJECTIVE, SCOPE, AND APPROACH

In connection with our engagement to audit the financial statements of DHS as of and for the year ended
September 30, 2012, we performed an evaluation of the general Information Technology (IT) controls
(GITCs) at FEMA to assist in planning and performing our audit engagement. The Federal Information
System Controls Audit Manual (FISCAM), issued by the U.S. GAO, formed the basis of our GITC
evaluation procedures. The scope of the GITC evaluation is further described in Appendix A.

FISCAM was designed to inform financial statement auditors about IT controls and related audit concerns
to assist them in planning their audit work and to integrate the work of auditors with other aspects of the
financial statement audit. FISCAM also provides guidance to auditors when considering the scope and
extent of review that generally should be performed when evaluating GITCs and the IT environment of a
federal agency. FISCAM defines the following five control functions to be essential to the effective
operation of GITCs and the IT environment:

   Security Management (SM) – Controls that provide a framework and continuing cycle of activity for
   managing risk, developing security policies, assigning responsibilities, and monitoring the adequacy
   of computer-related security controls.

   Access Control (AC) – Controls that limit or detect access to computer resources (data, programs,
   equipment, and facilities) and protect against unauthorized modification, loss, and disclosure.

   Configuration Management (CM) – Controls that help to prevent unauthorized changes to information
   system resources (software programs and hardware configurations) and provide reasonable assurance
   that systems are configured and operating securely and as intended.

   Segregation of Duties (SD) – Controls that constitute policies, procedures, and an organizational
   structure to manage who can control key aspects of computer-related operations.

   Contingency Planning (CP) – Controls that involve procedures for continuing critical operations
   without interruption, or with prompt resumption, when unexpected events occur.

To complement our GITC audit procedures, we also performed technical security testing for key network
and system devices and testing over certain key financial application controls in the FEMA environment.
The technical security testing was performed from within select FEMA and contractor facilities and
focused on production devices that directly support FEMA’s financial processing and key general support
systems. Limited after-hours physical security testing was also included in the scope of technical security
testing.

In addition to testing FEMA’s GITC environment, we performed application control tests on a limited
number of FEMA’s financial systems and applications, specifically those supporting the National Flood
Insurance Program (NFIP). The application control testing was performed to assess the financial
systems’ internal controls over the input, processing, and output of financial data and transactions.



               Information Technology Management Letter for the FEMA Component

            of the FY 2012 Department of Homeland Security Financial Statement Audit

                                            Page 1

                                 Department of Homeland Security

                             Federal Emergency Management Agency

                             Information Technology Management Letter
                                        September 30, 2012

                  SUMMARY OF FINDINGS AND RECOMMENDATIONS

During FY 2012, FEMA took corrective action to address certain prior year IT control weaknesses. For
example, FEMA made improvements over designing and implementing certain physical and logical
access controls over FEMA and NFIP information systems, as well as strengthening and improving
controls around patch management and vulnerability management. However, during FY 2012, we
continued to identify GITC and entity-level control weaknesses that could potentially impact FEMA’s
financial data.

FEMA Office of the Chief Financial Officer (OCFO) and Office of the Chief Information Officer (OCIO)
management informed us that the management conducted a quantitative and qualitative analysis of the
composite functions, capabilities, applications, and subsystems previously included within the
accreditation boundary of the General Support System (GSS) previously accredited as the National
Emergency Management Information System (NEMIS). As a result of that analysis and our planning
considerations, Non-Disaster Grants (ND Grants), Emergency Support (ES), and the Emergency
Management Mission Integrated Environment (EMMIE) were identified as financially significant
information systems subject to controls test work during the FY 2012 audit. Consequently, findings
issued in FY 2011 which related to the previous NEMIS accreditation boundary were determined to be no
longer applicable to FEMA’s control environment and were closed. Test work was performed specific to
these three systems to determine the status of corrective actions implemented to address the prior year
NEMIS-related conditions.

The most significant weaknesses from a financial statement audit perspective related to controls over
security management, access control, configuration management , and contingency planning for the
Integrated Financial Management Information System (IFMIS)-Merger, Payment and Reporting System
(PARS), ND Grants, ES, EMMIE, Traverse, Transaction Record Reporting and Processing (TRRP), and
associated General Support System (GSS) environments including the FEMA Enterprise Network (FEN),
as well as weaknesses over physical security and security awareness.

Collectively, the IT control weaknesses limited FEMA’s ability to ensure that critical financial and
operational data were maintained in such a manner to ensure confidentiality, integrity, and availability. In
addition, these weaknesses negatively impacted the internal controls over FEMA financial reporting and
its operation, and we consider them to collectively contribute to a material weakness at the DHS level
under standards established by the American Institute of Certified Public Accountants. In addition, based
upon the results of our test work, we noted that FEMA did not fully comply with the requirements of the
Federal Financial Management Improvement Act of 1996.

Of the 61 findings identified during our FY 2012 testing, 16 were repeat findings, either partially or in
whole from the prior year, and 45 were new IT findings. While 32 of 48 prior year findings were closed
in FY 2012, as noted above, 11 were closed solely because of the decoupling of the previous NEMIS
accreditation boundary into its constituent financial systems. Through our test work we noted that
weaknesses existed in the 3 financially significant decoupled systems in the control areas related to these
prior year findings, and as a result, 29 new findings were issued. Further, 9 prior year NFRs closed were
based on improvements noted in the design and implementation of certain controls, which enabled us to
test the operating effectiveness of the control. However, this additional test work highlighted

               Information Technology Management Letter for the FEMA Component

            of the FY 2012 Department of Homeland Security Financial Statement Audit

                                            Page 2

                                 Department of Homeland Security

                             Federal Emergency Management Agency

                             Information Technology Management Letter
                                        September 30, 2012

inconsistencies in control implementation, resulting in 9 new findings being issued. The 61 findings
issued represent weaknesses in each of the five FISCAM key control areas.

The majority of findings resulted from the lack of properly documented, fully designed and implemented,
adequately detailed, and consistently implemented financial system controls to comply with DHS
Sensitive Systems Policy Directive 4300A, Information Technology Security Program, requirements and
National Institute of Standards and Technology (NIST) guidance. Specifically, the findings stem from:

    1.	 Inadequately designed and ineffective access control policies and procedures relating to the
        management of logical access to financial applications, databases, and support systems, and
        periodic supervisor recertification of user access privileges;
    2.	 Insufficient logging of system events and monitoring of audit logs;
    3.	 Inadequately designed and ineffective configuration management policies and procedures;
    4.	 Patch, configuration, and vulnerability management control deficiencies within systems;
    5.	 Improper or incomplete security authorization activities and supporting artifacts and 

        documentation; and

    6.	 Inadequately documented or tested contingency plans and the lack of alternate processing
        capabilities.

These weaknesses may increase the risk that the confidentiality, integrity, and availability of system
controls and FEMA financial data could be exploited, thereby compromising the integrity of FEMA
financial data used by management and reported in the DHS financial statements.

While the recommendations made by us should be considered by FEMA, it is the ultimate responsibility
of FEMA management to determine the most appropriate method(s) for addressing the weaknesses
identified.




               Information Technology Management Letter for the FEMA Component

            of the FY 2012 Department of Homeland Security Financial Statement Audit

                                            Page 3

                                 Department of Homeland Security

                             Federal Emergency Management Agency

                             Information Technology Management Letter
                                        September 30, 2012

            GENERAL IT CONTROL FINDINGS AND RECOMMENDATIONS

Findings:

During our engagement to audit the FY 2012 DHS financial statements, we identified the following
FEMA GITC control deficiencies that in the aggregate contribute to the IT material weakness at the
Department level.

Configuration Management

    Password, security patch management, and configuration deficiencies were identified during the
    vulnerability assessment on hosts supporting IFMIS-Merger, NDGrants, EMMIE, Traverse, and the
    NFIP Local Area Network (LAN), and financially significant segments of the FEN and end-user
    computing environment.
    Formal procedures for conducting internal scans of servers supporting FEMA systems did not define
    requirements or procedures to ensure that system owners document reviews of scan results.
    Additionally, internal scans over ES system components were not consistently performed.
    A formalized configuration management plan (CMP) for ES was not documented to ensure that
    changes were adequately and centrally controlled, documented, or managed throughout the lifecycle
    of the FEMA configuration management process, and the CMPs for EMMIE and NDGrants did not
    fully document all control activities necessary to support the review and approval of changes to those
    systems.
    The use of shared accounts for deploying changes to the NDGrants and EMMIE production
    environments was not properly authorized, controlled or monitored, and controls to validate the
    integrity and completeness of changes to those systems were not designed or implemented properly.
    Configuration management policies and procedures did not include comprehensive requirements for
    the frequency, documentation, and performance of monitoring audits for configuration baselines for
    all relevant network devices such as firewalls, routers, and switches that support IFMIS-Merger to
    ensure that configuration items within the scope of the system accreditation boundary are documented
    and monitored in accordance with FEMA policy. Additionally, configuration changes which were
    implemented over these devices were not consistently or adequately documented or authorized.
    Formal procedures to require monitoring of changes deployed to IFMIS-Merger program libraries to
    review and validate implemented changes did not accurately reflect existing technical controls and
    processes related to configuration management activities within the production environment.
    Furthermore, reviews of developer activities were not consistently conducted for changes
    implemented during FY 2012.
    Formal procedures for conducting internal scans of the NFIP LAN supporting Traverse did not
    include requirements for tracking and monitoring all types of vulnerabilities via the Plan of Actions &
    Milestones (POA&M) process.
    A testing environment did not exist to validate changes to Traverse software prior to deployment to
    production.

               Information Technology Management Letter for the FEMA Component

            of the FY 2012 Department of Homeland Security Financial Statement Audit

                                            Page 4

                                  Department of Homeland Security

                              Federal Emergency Management Agency

                              Information Technology Management Letter
                                         September 30, 2012

    TRRP and IFMIS-Merger changes were not consistently tested or approved prior to development and
    implementation into production.

Security Management

    Policies and procedures requiring the completion and tracking of specialized training for FEMA
    employees and contractors identified as possessing significant information security responsibilities
    and identification of applicable personnel subject to specialized training requirements had not been
    fully implemented as required by DHS policy.
    Security authorization activities and supporting documentation and artifacts for IFMIS-Merger, FEN,
    EMMIE, NDGrants, and ES – including Authorization to Operate (ATO) memoranda, risk
    assessments, privacy threshold analyses, security plans, IT contingency plans (CP) and associated
    plan test results, security control assessments, Security Assessment Reports (SAR) and corresponding
    POA&Ms – were not completed in accordance with DHS and NIST requirements.
    IT security management responsibilities were not consistently or adequately assigned and performed
    over the FEMA POA&M process for FY 2011 IT audit findings, in accordance with DHS guidance.
    Background investigations for FEMA Federal employees and contractors accessing DHS IT systems
    were not appropriately conducted, and results were not properly documented or tracked.

After-Hours Physical Security Testing:

On May 29 and June 6, 2012, we performed after-hours physical security testing to identify risks related
to non-technical aspects of IT security. These non-technical IT security aspects included physical access
to media and equipment that housed financial data and information residing within a FEMA employee’s
or contractor’s work area which could be used by others to gain unauthorized access to systems housing
financial information. The testing was performed at various FEMA locations that process and/or maintain
financial data. The specific results are listed in the following table:

                                                        FEMA Locations Tested
                                              Washington                        FEMA             Total
                                               Design           Patriots        Finance        Exceptions
               Exceptions Noted                Center            Plaza          Center          by Type
Passwords                                          19              18               2              39
For Official Use Only (FOUO)                        3               3               0               6
Keys                                                0               0               0               0
Personally Identifiable Information (PII)          10               0               3              13
Unlocked Laptops                                    5               1              13              19
Server Names/ IP Addresses                          1               0               0               1
Credit Cards                                        0               0               0               0
Classified Documents                                0               0               0               0
Unsecured External Media                            0               0               1               1
                  Information Technology Management Letter for the FEMA Component

               of the FY 2012 Department of Homeland Security Financial Statement Audit

                                               Page 5

                                 Department of Homeland Security

                             Federal Emergency Management Agency

                             Information Technology Management Letter
                                        September 30, 2012

                                                         FEMA Locations Tested
                                               Washington                         FEMA            Total
                                                Design           Patriots         Finance       Exceptions
            Exceptions Noted                    Center            Plaza           Center         by Type
Unlocked Interior Office                             1               0               0                1
Total by Location                                   39              22               19              80

Access Controls

    Traverse application accounts were not periodically recertified at an appropriate level of detail to
    determine the continued appropriateness of user access and associated privileges and system
    functionality.
    FEN accounts were not disabled or removed promptly upon personnel termination.
    Initial and modified access granted to IFMIS-Merger application users was not properly or timely
    documented and authorized.
    Documented procedures for auditing IFMIS-Merger, NDGrants, ES, EMMIE, and PARS databases,
    the Traverse application, and the NFIP LAN were not comprehensive and did not meet DHS
    requirements. Additionally, for NDGrants, ES, EMMIE, Traverse, and the NDIP LAN, logging of
    operating system, application, and/or database events required to be recorded was not enabled for
    some or all of the events; audit logs were not appropriately reviewed and/or were reviewed by those
    with conflicting roles; and evidence of audit log reviews was not retained.
    Documented procedures for managing access to the NDGrants, ES, and EMMIE applications and
    databases, including sensitive access to system components managed by the FEMA IT Operations
    Branch System, Database and Application Management (SDAM) team, were incomplete or did not
    adequately consider requirements for system owner review and approval of access privileges for users
    and individuals with elevated privileges within the systems.
    Generic accounts and remote access to the FEN and elevated privileges to FEMA and NFIP financial
    systems were not authorized by the appropriate FEMA management official as required by DHS
    policy.
    Strong password requirements were not enforced on the NDGrants, ES, and EMMIE databases, and
    documentation supporting exceptions to DHS password requirements was incomplete.
    Interconnections between the FEN and one external system were not properly authorized or
    documented for a majority of the fiscal year.
    Documentation describing the implementation of IFMIS-Merger system user functions was
    incomplete or inaccurate.
    Emergency and temporary access to the IFMIS-Merger production environment was not consistently
    authorized.
    Certain FEMA personnel with financial reporting, management, and oversight roles were granted
    IFMIS-Merger application access that was excessive and/or not consistent with the principles of least
               Information Technology Management Letter for the FEMA Component

            of the FY 2012 Department of Homeland Security Financial Statement Audit

                                            Page 6

                                Department of Homeland Security

                            Federal Emergency Management Agency

                            Information Technology Management Letter
                                       September 30, 2012

    privilege and separation of duties, and existing system documentation did not adequately define the
    implementation of certain access groups and associated privileges granted to these personnel.

Segregation of Duties – We identified segregation of duties weaknesses associated with other FISCAM
areas. Specifically, weaknesses in those areas pertain to access controls over audit log reviews and
configuration management controls for migrating code into production. See those respective sections for
additional information.

Contingency Planning

    Alternate processing sites for NDGrants, ES, and EMMIE were not established and implemented.
    Business Impact Assessments (BIAs) were not performed prior to development of the NDGrants, ES,
    and EMMIE CPs; FEMA management review and approval of the ES and IFMIS-Merger CPs were
    not performed or documented within frequencies required by DHS policy; and the EMMIE and
    IFMIS-Merger CPs were not updated as a result of plan testing.

Recommendations:

We recommend that the FEMA Chief Information Officer (CIO) and Chief Financial Officer (CFO), in
coordination with the DHS OCFO and the DHS OCIO, make the following improvements to FEMA’s
financial management systems and associated IT security program.

For Configuration Management

    Implement the specific vendor-recommended corrective actions detailed in the NFRs that were issued
    for deficiencies identified during our vulnerability assessments.
    Develop or revise and ensure that formal procedures are understood and consistently implemented by
    system owners for documenting reviews of internal vulnerability scan results, and develop and
    implement controls for monitoring compliance with vulnerability management policies and
    procedures.
    Develop or revise and implement formal configuration management plans for ES, EMMIE, and
    NDGrants to control changes to financial systems application software, and ensure consistent
    adherence with requirements for approving, testing, documenting, properly controlling and tracking
    changes, and retaining related documentation.
    Revise formalized processes and procedures for deploying NDGrants and EMMIE changes to the
    production environment to ensure that the use of shared accounts for movement of production code
    into each production environment is appropriately authorized, controlled, and monitored.
    Develop and implement appropriate formal technical and management controls to systematically
    track and review modifications to the NDGrants and EMMIE production environments to ensure the
    completeness and integrity of change reports and logs.
    Revise and implement configuration management policies and procedures over managing
    configuration changes for FEN network devices supporting financial applications, including IFMIS-

               Information Technology Management Letter for the FEMA Component

            of the FY 2012 Department of Homeland Security Financial Statement Audit

                                            Page 7

                                Department of Homeland Security

                            Federal Emergency Management Agency

                            Information Technology Management Letter
                                       September 30, 2012

   Merger, to ensure that changes are consistently documented and authorized by FEMA management
   consistent with DHS policy and the FEN configuration management plan.
   Revise formal procedures for controlling changes deployed to IFMIS-Merger program libraries to
   reflect the current production environment, and implement controls for consistently verifying that
   only authorized changes are implemented into production and for retaining evidence of reviews
   conducted on file.
   Revise and implement comprehensive vulnerability management policies and procedures to ensure
   that all potential vulnerabilities identified during internal scans of the NFIP LAN supporting Traverse
   are documented and tracked via the POA&M process.
   Complete on-going efforts to establish and implement a separate test environment to support
   validation of changes to Traverse software prior to deployment to production.
   Ensure the consistent implementation of configuration management procedures and development of
   supporting documentation for all changes to IFMIS-Merger and TRRP.

For Security Management

   Implement policies and procedures requiring initial and periodic specialized training for individuals
   with significant information security responsibilities to ensure that all individuals possessing specific
   roles and positions associated with significant information security responsibilities are identified and
   compliance with training requirements is tracked.
   Document or update all required security authorization artifacts for IFMIS-Merger, FEN, EMMIE,
   NDGrants, and ES in accordance with DHS policy and NIST guidance, and revise and fully
   implement appropriate monitoring controls to ensure continued compliance with applicable criteria
   related to security authorization activities and supporting documentation.
   Revise and implement formalized processes to ensure that POA&Ms related to audit findings for
   financial systems are developed and maintained in accordance with DHS guidance.
   Further refine processes to ensure that background investigations for all types of Federal employees
   and contractors are consistently performed and centrally tracked in accordance with DHS policy.
   Review the effectiveness of existing security awareness programs designed to protect “need-to-know”
   information, including IT system access credentials, electronic and physical data, PII, and FOUO
   agency information, including FEMA’s planned Operational Security (“OPSEC”) framework and
   associated policies, procedures, and monitoring controls, and ensure that individuals are adequately
   instructed and reminded of their roles in the protection of sensitive system information from
   unauthorized individuals through formal, periodic communications and/or security awareness
   training.

For Access Controls

   Establish and/or implement user account management recertification processes, and require
   completion of periodic reviews of all user accounts for appropriate access and documentation of
   current user profiles for the Traverse application.

              Information Technology Management Letter for the FEMA Component

           of the FY 2012 Department of Homeland Security Financial Statement Audit

                                           Page 8

                                Department of Homeland Security

                            Federal Emergency Management Agency

                            Information Technology Management Letter
                                       September 30, 2012

   Update, as necessary, and implement procedures and processes to ensure that all FEN accounts of
   terminated employees and contractors are immediately removed/disabled upon their departure.
   Review and revise existing procedures to require documented authorization of new and modified
   IFMIS-Merger, EMMIE, NDGrants, and ES database and application user accounts by system
   owners, supervisors, program managers, and contracting officers’ technical representatives in
   accordance with DHS requirements.
   Revise and implement detailed procedures requiring the consistent and timely review of IFMIS-
   Merger, NDGrants, ES, EMMIE, PARS, NFIP LAN, and Traverse database, application, and
   operating system logs and the maintenance of documentation supporting such reviews in accordance
   with DHS requirements.
   Configure audit logs for NFIP LAN, Traverse, EMMIE, NDGrants, and ES databases and
   applications to ensure that auditable events, as required by DHS policy, are recorded, retained, and
   appropriately reviewed by independent security management personnel, and sufficient evidence is
   retained.
   Revise and implement policies and procedures for documenting, reviewing, and approving generic
   accounts and remote access to the FEN and elevated privileges to FEMA and NFIP financial systems,
   by appropriate FEMA management officials as required by DHS policy.
   Configure NDGrants, ES, and EMMIE databases to enforce strong password and authenticator
   control requirements for all user accounts and, if necessary and justified by operational and business
   requirements, ensure that documented requests for exceptions from DHS password requirements
   identify all affected accounts subject to deviations from standard controls.
   Revise and implement policies and procedures for documenting, reviewing, and approving external
   connections to the FEMA network, including documentation of roles, responsibilities, and security
   requirements within Interconnection Security Agreements (ISAs) or equivalent agreements.
   Revise and implement policies and procedures for documenting IFMIS-Merger security functions to
   ensure that system documentation accurately and completely reflects existing functionality and
   privileges assigned to application users.
   Implement and monitor compliance with a formal process for granting and documenting authorization
   of emergency and temporary access to the IFMIS-Merger production environment.
   Revise and implement controls to manage the assignment of groups and corresponding roles and
   functionality within the IFMIS application, including relative to individuals in financial reporting,
   management, or oversight roles within FEMA, by identifying conflicting roles, revising system
   documentation as appropriate, and modifying existing assignments to address violations of
   segregation of duties and least privilege principles.

For Contingency Planning

   Complete on-going efforts to establish and implement alternate processing sites for NDGrants, ES,
   and EMMIE.


              Information Technology Management Letter for the FEMA Component

           of the FY 2012 Department of Homeland Security Financial Statement Audit

                                           Page 9

                           Department of Homeland Security
                       Federal Emergency Management Agency
                       Information Technology Management Letter
                                  September 30, 2012

Conduct and document the results of BIAs for NDGrants, ES, and EMMIE, and update corresponding
CPs as appropriate based on the results of assessments.
Update EMMIE and IFMIS-Merger CPs as appropriate based on results and lessons learned from
testing, and submit ES and IFMIS-Merger CPs to appropriate FEMA management officials for review
and approval at least annually.




          Information Technology Management Letter for the FEMA Component

       of the FY 2012 Department of Homeland Security Financial Statement Audit

                                       Page 10

                                Department of Homeland Security

                            Federal Emergency Management Agency

                            Information Technology Management Letter
                                       September 30, 2012

                                  APPLICATION CONTROLS

We concluded that application controls over NDGrants, ES, EMMIE, IFMIS-Merger, and PARS could
not be relied upon for purposes of our FY 2012 audit engagement procedures because of the nature of the
GITC deficiencies identified and discussed above. As a result, we did not test application controls for
these financial systems. However, we conducted certain application control testing over key financial
systems supporting NFIP. Based on the testwork conducted, we did not identify any findings in the area
of application controls related to NFIP financial systems during the FY 2012 FEMA audit engagement.




              Information Technology Management Letter for the FEMA Component

           of the FY 2012 Department of Homeland Security Financial Statement Audit

                                           Page 11

                                                                            Appendix A
                        Department of Homeland Security

                    Federal Emergency Management Agency

                    Information Technology Management Letter
                               September 30, 2012




                                 Appendix A

Description of Key FEMA Financial Systems and IT Infrastructure 

 within the Scope of the FY 2012 DHS Financial Statement Audit





         Information Technology Management Letter for the FEMA Component

      of the FY 2012 Department of Homeland Security Financial Statement Audit

                                      Page 12

                                                                                             Appendix A
                                 Department of Homeland Security
                             Federal Emergency Management Agency
                             Information Technology Management Letter
                                        September 30, 2012

Below is a description of significant FEMA financial management systems and supporting IT
infrastructure included in the scope of FEMA’s FY 2012 financial statement audit.

Integrated Financial Management Information System – Merger (IFMIS-Merger)

IFMIS-Merger is the official accounting system of FEMA and maintains all financial data for internal and
external reporting. IFMIS-Merger is comprised of five subsystems: Funding, Cost Posting,
Disbursements, Accounts Receivable, and General Ledger. The application is a commercial off-the-shelf
software package developed and maintained by Digital Systems Group Incorporated. IFMIS-Merger
interfaces with PARS, ProTrac, Smartlink (Department of Health and Human Services [HHS]), Treasury
Information Executive Repository (Department of the Treasury), Secure Payment System (Department of
the Treasury), Grants Management System (Department of Justice), United States Coast Guard Credit
Card System, Credit Card Transaction Management System (CCTMS), Fire Grants, eGrants, Enterprise
Data Warehouse and Payroll (Department of Agriculture National Finance Center). The IFMIS-Merger
production environment is located in Virginia.

Payment and Reporting System (PARS)

PARS is a standalone web-based application. The PARS database resides on the IFMIS-Merger UNIX
server and is incorporated within the Certification & Accreditation (C&A) boundary for that system.
Through its web interface, PARS collects Standard Form 425 information from grantees and stores the
information in its Oracle 9i database. Automated scheduled jobs are run daily to update and interface
grant and obligation information between PARS and IFMIS-Merger. All payments to grantees are made
through IFMIS-Merger. PARS is located in Virginia.

Non-Disaster Grant Management System (NDGrants)
NDGrants is a web-based system that supports the grants management lifecycle and is used by external
stakeholders and grantees, via a public Web site, to apply for grants and monitor the progress of grant
applications, submit payments, and view related reports, and by the FEMA Program Support Division, via
an internal Web site, for reviewing, approving, and processing grant awards. NDGrants interfaces with
two other systems: FEMA’s internal Integrated Security and Access Control System (ISAAC), used for
user credentialing and role-based access, and the HHS Grants.gov system, used for publishing grant
solicitations and downloading applications. NDGrants is located in Virginia.
Emergency Support (ES)
ES is an internal FEMA application for pre-processing disaster-related financial transactions, including
allocation, commitment, obligation, mission assignment and payment requests from other internal and
external systems. ES serves as the primary interface to IFMIS. It also allows FEMA users to process
disaster housing payments, perform payment recoupment, and conduct other administrative tasks.
In addition to IFMIS, ES has interfaces to several other FEMA systems, including:
        ISAAC (organizational and personnel data and team setup);
        Emergency Coordination (incident and disaster declarations);


               Information Technology Management Letter for the FEMA Component

            of the FY 2012 Department of Homeland Security Financial Statement Audit

                                            Page 13

                                                                                             Appendix A
                                 Department of Homeland Security
                             Federal Emergency Management Agency
                             Information Technology Management Letter
                                        September 30, 2012

        Enterprise Coordination and Approvals Processing System (commitment and mission assignment
        [obligation] requests);
        Hazard Mitigation Grants Program (allocation and obligation requests);
        Individual Assistance (payment and recoupment requests);
        Public Assistance (PA) (obligation and allocation requests);
        Automated Deployment Database (personnel data);
        Assistance to Firefighters Grants (obligation, invoice and vendor requests);
        Emergency Management Mission Integrated Environment (EMMIE) (obligation requests);
        Mitigation Electronic Grants Management System (obligation requests); and
        CCTMS (expenditure requests).
NDGrants is located in Virginia.
Emergency Management Mission Integrated Environment (EMMIE)
EMMIE is an internal Web-based grants management solution used by FEMA program offices and user
communities directly involved in the grant lifecycle associated with the PA Grant Program and the Fire
Management Assistance Grant Program. It is also designed to interface with other government entities
and grant and sub-grant applicants (e.g., states and localities). EMMIE provides functionality for public
entities and private-non-profit entities to create and submit grant applications and for FEMA users to
review and award applications, generate and review relevant mission critical reports, process
amendments, and conduct close-out activities.
Interfaces exist between the EMMIE system and IFMIS. EMMIE is located in Virginia.




               Information Technology Management Letter for the FEMA Component

            of the FY 2012 Department of Homeland Security Financial Statement Audit

                                            Page 14

                                                                                           Appendix A
                                Department of Homeland Security
                            Federal Emergency Management Agency
                            Information Technology Management Letter
                                       September 30, 2012

Traverse

Traverse is the general ledger application currently used by the NFIP Bureau and Statistical Agent to
generate the NFIP financial statements. Traverse is a client-server application that runs on the NFIP LAN
Windows server environment located in Maryland. The Traverse client is installed on the desktop
computers of the NFIP Bureau of Financial Statistical Control group members and interfaces with a
Microsoft Structured Query Language database hosted on an internal segment of the NFIP LAN.
Traverse has no known external system interfaces.

Transaction Recording and Reporting Processing (TRRP)

The TRRP application acts as a central repository of all data submitted by the Write Your Own (WYO)
companies and the Direct Servicing Agent (DSA) for the NFIP. TRRP also supports the WYO program,
primarily by ensuring the quality of financial data submitted by the WYO companies and DSA to TRRP.
TRRP is a mainframe-based application that runs on the NFIP mainframe logical partition in Connecticut.
TRRP has no known system interfaces.




               Information Technology Management Letter for the FEMA Component

            of the FY 2012 Department of Homeland Security Financial Statement Audit

                                            Page 15

                                                                               Appendix C
                           Department of Homeland Security

                       Federal Emergency Management Agency

                       Information Technology Management Letter
                                  September 30, 2012




                                     Appendix B

    FY 2012 Notices of IT Findings and Recommendations at FEMA

.




            Information Technology Management Letter for the FEMA Component

         of the FY 2012 Department of Homeland Security Financial Statement Audit

                                         Page 16

                                                                                                                            Appendix C
                                                  Department of Homeland Security
                                              Federal Emergency Management Agency
                                              Information Technology Management Letter
                                                         September 30, 2012

FY 2012 NFR #                                     NFR Title                                  FISCAM Control Area       New      Repeat
                                                                                                                       Issue     Issue
FEMA-IT-12-01   Security Awareness Issues Identified during After-Hours Physical Security     Security Management                 X
                Testing at FEMA
FEMA-IT-12-02   All Required Auditable Events Not Included in Traverse Audit Logs               Access Controls                   X
FEMA-IT-12-03   Inadequate Retention of NFIP LAN Audit Logs                                     Access Controls                   X
FEMA-IT-12-04   Inadequate Documentation Supporting IFMIS-Merger User Functions                 Access Controls                   X
FEMA-IT-12-05   Incomplete Recertification of Traverse Application User Privileges              Access Controls         X
FEMA-IT-12-06   Weaknesses Identified during the Vulnerability Assessment on IFMIS             Access Controls and                X
                                                                                            Configuration Management
FEMA-IT-12-07   Weaknesses Identified during the Vulnerability Assessment on the NFIP LAN      Access Controls and      X
                                                                                            Configuration Management
FEMA-IT-12-08   Weaknesses Identified during the Vulnerability Assessment on Financially       Access Controls and      X
                Significant Segments of the FEN and End-User Computing Environment          Configuration Management
FEMA-IT-12-09   Weaknesses Identified during the Vulnerability Assessment on EMMIE             Access Controls and      X
                                                                                            Configuration Management
FEMA-IT-12-10   Weaknesses Identified during the Vulnerability Assessment on NDGrants          Access Controls and      X
                                                                                            Configuration Management
FEMA-IT-12-11   Inconsistent Authorization of New and Modified IFMIS-Merger Application         Access Controls         X
                User Access
FEMA-IT-12-12   Untimely Removal of FEN Access Privileges for Separated FEMA Employees          Access Controls                   X
FEMA-IT-12-13   Incomplete Implementation of Role-Based Training for Individuals with         Security Management                 X
                Significant Information Security Responsibilities
FEMA-IT-12-14   Incomplete POA&Ms for Internal NFIP LAN Vulnerability Assessments           Configuration Management    X
FEMA-IT-12-15   Weaknesses in the Management of POA&Ms for Audit Findings over FEMA           Security Management                 X

                               Information Technology Management Letter for the FEMA Component

                            of the FY 2012 Department of Homeland Security Financial Statement Audit

                                                            Page 17

                                                                                                                           Appendix C
                                                  Department of Homeland Security
                                              Federal Emergency Management Agency
                                              Information Technology Management Letter
                                                         September 30, 2012

FY 2012 NFR #                                    NFR Title                                  FISCAM Control Area       New      Repeat
                                                                                                                      Issue     Issue
                Financial Systems
FEMA-IT-12-16   Inconsistent Review of Audit Logs of IFMIS-Merger System Software              Access Controls         X
                Administrator Activity
FEMA-IT-12-17   Lack of Adequate Configuration Management over Network Devices             Configuration Management              X
                Supporting Financial Systems
FEMA-IT-12-18   Non-Compliance with DHS Policy for Approval of Shared Accounts on the          Access Controls         X
                FEN
FEMA-IT-12-19   Non-Compliance with DHS Policy for Approval of Remote Access to the FEN        Access Controls         X
FEMA-IT-12-20   Lack of ISA between FEMA and Department of Justice                             Access Controls         X
FEMA-IT-12-21   Inadequate Security Authorization Documentation for the FEN                  Security Management                 X
FEMA-IT-12-22   Lack of CMP Documentation for ES                                           Configuration Management    X
FEMA-IT-12-23   Lack of Testing Traverse Application Changes Prior to Implementation       Configuration Management              X
FEMA-IT-12-24   Inconsistent Documentation of TRRP Configuration Changes                   Configuration Management              X
FEMA-IT-12-25   Inconsistent Review of PARS Database Audit Logs                                Access Controls         X
FEMA-IT-12-26   Lack of BIA Supporting the NDGrants CP                                       Contingency Planning      X
FEMA-IT-12-27   Lack of Alternate Processing Site and Sufficient CP Testing for NDGrants     Contingency Planning      X
FEMA-IT-12-28   Inconsistent Implementation of DHS Background Investigation Requirements     Security Management                 X
                for FEMA Federal Employees and Contractors
FEMA-IT-12-29   Non-Compliance with DHS Policies for IFMIS-Merger Security Authorization     Security Management       X
                Documentation
FEMA-IT-12-30   Lack of Adequate IFMIS-Merger CP and Plan Test Documentation                 Contingency Planning      X
FEMA-IT-12-31   Approval of Elevated Privileges Was Not Consistent with DHS Policy             Access Controls         X

                               Information Technology Management Letter for the FEMA Component

                            of the FY 2012 Department of Homeland Security Financial Statement Audit

                                                            Page 18

                                                                                                                          Appendix C
                                                 Department of Homeland Security
                                             Federal Emergency Management Agency
                                             Information Technology Management Letter
                                                        September 30, 2012

FY 2012 NFR #                                   NFR Title                                  FISCAM Control Area       New      Repeat
                                                                                                                     Issue     Issue
FEMA-IT-12-32   Lack of EMMIE System Owner Approval for Database Accounts                     Access Controls         X
FEMA-IT-12-33   Incomplete Access Procedures for Operations Branch Database Accounts          Access Controls         X
FEMA-IT-12-34   Lack of ES System Owner Approval for Database Accounts                        Access Controls         X
FEMA-IT-12-35   Lack of NDGrants System Owner Approval for Database Accounts                  Access Controls         X
FEMA-IT-12-36   Inconsistent Review of IFMIS-Merger Application and Database Audit Logs       Access Controls                   X
FEMA-IT-12-37   Insufficient Development and Update of the EMMIE CP                         Contingency Planning      X
FEMA-IT-12-38   Non-Compliance with Alternate Processing Site Requirements for EMMIE        Contingency Planning      X
FEMA-IT-12-39   Insufficient Review and Approval of the ES CP                               Contingency Planning      X
FEMA-IT-12-40   Non-Compliance with Alternate Processing Site Requirements for ES           Contingency Planning      X
FEMA-IT-12-41   Incomplete POA&Ms for EMMIE SAR Weaknesses                                  Security Management       X
FEMA-IT-12-42   Non-Compliant Security Authorization Package for NDGrants                   Security Management       X
FEMA-IT-12-43   Non-Compliant Security Authorization Package for ES                         Security Management       X
FEMA-IT-12-44   Incomplete Account Management Procedures for the EMMIE Application            Access Controls         X
FEMA-IT-12-45   Incomplete Account Management Procedures for NDGrants                         Access Controls         X
FEMA-IT-12-46   Incomplete Account Management Procedures for ES                               Access Controls         X
FEMA-IT-12-47   Non-Compliance with DHS and FEMA Password Requirements for Oracle             Access Controls         X
                Databases Supporting Financial Applications
FEMA-IT-12-48   Incomplete Waiver Request for Password Controls on Oracle Databases           Access Controls         X
                Supporting Financial Applications
FEMA-IT-12-49   Inconsistent Authorization of Temporary Access to IFMIS-Merger System        Access Controls and                X
                Software                                                                  Configuration Management

                               Information Technology Management Letter for the FEMA Component

                            of the FY 2012 Department of Homeland Security Financial Statement Audit

                                                            Page 19

                                                                                                                        Appendix C
                                                  Department of Homeland Security
                                              Federal Emergency Management Agency
                                              Information Technology Management Letter
                                                         September 30, 2012

FY 2012 NFR #                                     NFR Title                              FISCAM Control Area       New      Repeat
                                                                                                                   Issue     Issue
FEMA-IT-12-50   Inadequate Monitoring of Configuration Changes Deployed to the IFMIS-   Configuration Management              X
                Merger Production Environment
FEMA-IT-12-51   Inconsistent Activities and Incomplete Documentation Supporting         Configuration Management    X
                Configuration Changes for the IFMIS-Merger Application
FEMA-IT-12-52   Lack of ES Information System Security Officer Review of Monthly        Configuration Management    X
                Vulnerability Scan Results
FEMA-IT-12-53   Insufficient Audit Log Controls for EMMIE                                   Access Controls         X
FEMA-IT-12-54   Insufficient Audit Log Controls for NDGrants                                Access Controls         X
FEMA-IT-12-55   Insufficient Audit Log Controls for ES                                      Access Controls         X
FEMA-IT-12-56   Incomplete Documentation Supporting EMMIE Configuration Management      Configuration Management    X
                Controls
FEMA-IT-12-57   Unauthorized Shared Account Usage for EMMIE and NDGrants Production     Configuration Management    X
                Application Deployments
FEMA-IT-12-58   Lack of Controls to Validate Completeness and Integrity of EMMIE and    Configuration Management    X
                NDGrants Application Changes Deployed to Production
FEMA-IT-12-59   Incomplete Documentation Supporting NDGrants Configuration Management   Configuration Management    X
                Controls
FEMA-IT-12-60   Incomplete Vulnerability Management Procedures                          Configuration Management    X
FEMA-IT-12-61   Excessive or Inappropriate Access to IFMIS                                  Access Controls         X




                               Information Technology Management Letter for the FEMA Component

                            of the FY 2012 Department of Homeland Security Financial Statement Audit

                                                            Page 20

                                                                             Appendix C
                         Department of Homeland Security

                     Federal Emergency Management Agency

                     Information Technology Management Letter
                                September 30, 2012




                                  Appendix C

Status of Prior Year Notices of Findings and Recommendations and 

       Comparison to Current Year Notices of Findings and 

                   Recommendations at FEMA





          Information Technology Management Letter for the FEMA Component

       of the FY 2012 Department of Homeland Security Financial Statement Audit

                                       Page 21

                                                                                                                                       Appendix C
                                                     Department of Homeland Security
                                                 Federal Emergency Management Agency
                                                 Information Technology Management Letter
                                                            September 30, 2012

                                                                                                                                   Disposition
   NFR #                                                        Description
                                                                                                                          Closed         Repeat
FEMA-IT-11-01   Alternate Processing Site for NEMIS Has Not Been Established                                                X
                Weaknesses Exist in the C&A Package for the FEMA Switched Network (FSN)-2, which Includes the FEMA
FEMA-IT-11-02                                                                                                                        FEMA-IT-12-21
                LAN
FEMA-IT-11-03   Weaknesses Exist over the ATO and C&A Documentation for NEMIS                                               X
                NEMIS CP Does Not Comprehensively Address the Requirements of DHS Policy and Has Not Been
FEMA-IT-11-04                                                                                                               X
                Adequately Tested
                Formalized Training Requirements for Individuals with Significant Information Security Responsibilities
FEMA-IT-11-05                                                                                                                        FEMA-IT-12-13
                Have Not Been Fully Implemented and Role-Based Training is Not Tracked or Monitored
FEMA-IT-11-06   Documentation Supporting IFMIS-Merger User Functions Does Not Exist                                                  FEMA-IT-12-04
                Oracle Databases Supporting Financial Applications within the Previous NEMIS Accreditation Boundary are
FEMA-IT-11-07                                                                                                               X
                Not Configured to Enforce Password Requirements
                Oracle Databases Supporting Financial Applications within the Previous NEMIS Accreditation Boundary Do
FEMA-IT-11-08                                                                                                               X
                Not Adequately Enforce Account Lockout Requirements
                Operating System Audit Logging on Servers Supporting Financial Applications within the Previous NEMIS
FEMA-IT-11-09                                                                                                               X
                Accreditation Boundary is Not Adequate
                Weaknesses Existed over Contingency Planning, Testing and Development of the Continuity of Operations
FEMA-IT-11-10                                                                                                               X
                Plan for TRRP and Traverse
FEMA-IT-11-11   Recertification of NEMIS Access Control System Position Assignments is Incomplete                           X
                Audit Logging on Databases Supporting Financial Applications within the Previous NEMIS Accreditation
FEMA-IT-11-12                                                                                                               X
                Boundary is Not Adequate
                Weaknesses Exist over Vulnerability Management for Servers Supporting Financial Applications within the
FEMA-IT-11-13                                                                                                               X
                Previous NEMIS Accreditation Boundary
FEMA-IT-11-14   NFIP Physical Access Policies and Procedures were Not Appropriately Documented and Implemented              X
FEMA-IT-11-15   NFIP LAN and Traverse Account Security Configuration Is Not in Compliance with DHS Policy                   X

                                  Information Technology Management Letter for the FEMA Component

                               of the FY 2012 Department of Homeland Security Financial Statement Audit

                                                               Page 22

                                                                                                                                       Appendix C
                                                    Department of Homeland Security
                                                Federal Emergency Management Agency
                                                Information Technology Management Letter
                                                           September 30, 2012

                                                                                                                                   Disposition
   NFR #                                                      Description
                                                                                                                          Closed         Repeat
FEMA-IT-11-16   TRRP Logical Access was Not Appropriately Authorized                                                        X
FEMA-IT-11-17   Weaknesses Exist over Configuration and Operating Effectiveness of Traverse Audit Logs                               FEMA-IT-12-02
FEMA-IT-11-18   Inadequate Monitoring of Configuration Changes Deployed to the IFMIS-Merger Production Environment                   FEMA-IT-12-50
                Weaknesses Exist over Configuration Management Processes for Financial Applications within the Previous
FEMA-IT-11-19                                                                                                               X
                NEMIS Accreditation Boundary
FEMA-IT-11-20   Weaknesses Exist over IFMIS-Merger Configuration Management Processes                                       X
FEMA-IT-11-21   Weaknesses Exist over Recertification of Access to the IFMIS-Merger Application                             X
FEMA-IT-11-22   Weaknesses Exist over TRRP Mainframe Audit Logs                                                             X
FEMA-IT-11-23   Emergency and Temporary Access to IFMIS-Merger is Not Properly Authorized                                            FEMA-IT-12-49
FEMA-IT-11-24   Weaknesses Exist over IFMIS-Merger Application and Database Audit Logging                                            FEMA-IT-12-36
FEMA-IT-11-25   IFMIS–Merger User Access was Not Managed in Accordance with Account Management Procedures                   X
FEMA-IT-11-26   PARS Database Security Controls Are Not Appropriately Established                                           X
FEMA-IT-11-27   NFIP LAN Audit Logging is Not Performed in Accordance with DHS and FEMA Requirements                                 FEMA-IT-12-03
                Individual User Virtual Private Network (VPN) Access Accounts are Not Appropriately Authorized or
FEMA-IT-11-28                                                                                                               X
                Recertified
FEMA-IT-11-29   External Connections to the FEMA VPN Are Not Appropriately Authorized or Documented                         X
FEMA-IT-11-30   IFMIS-Merger System Software Administrator Activity Is Not Appropriately Restricted or Monitored            X
FEMA-IT-11-31   Weaknesses Exist over C&A Documentation for IFMIS-Merger                                                    X
FEMA-IT-11-32   Risk Assessment Activities over NFIP IT Systems were Not Adequately Performed                               X
FEMA-IT-11-33   Weaknesses Exist over Management and Technical Controls Associated with FEMA LAN Accounts                            FEMA-IT-12-12
FEMA-IT-11-34   Employee Termination Process for Removing System Access Should Be More Proactive                            X


                                 Information Technology Management Letter for the FEMA Component

                              of the FY 2012 Department of Homeland Security Financial Statement Audit

                                                              Page 23

                                                                                                                                  Appendix C
                                                    Department of Homeland Security
                                                Federal Emergency Management Agency
                                                Information Technology Management Letter
                                                           September 30, 2012

                                                                                                                              Disposition
   NFR #                                                       Description
                                                                                                                     Closed         Repeat
FEMA-IT-11-35   Traverse Configuration Management Plan Weaknesses                                                               FEMA-IT-12-23
FEMA-IT-11-36   TRRP Configuration Management Plan Weaknesses                                                                   FEMA-IT-12-24
FEMA-IT-11-37   Documentation Supporting TRRP Test Libraries Does Not Reflect Current Environment                      X
FEMA-IT-11-38   Federal Insurance and Mitigation Administration CMP has Not Been Developed                             X
FEMA-IT-11-39   Weaknesses Exist over Background Investigations for Federal Employees and Contractors                           FEMA-IT-12-28
FEMA-IT-11-40   Weaknesses in the Management of POA&Ms for Audit Findings over FEMA Financial Systems                           FEMA-IT-12-15
FEMA-IT-11-41   Physical Security and Security Awareness Issues Associated with Enhanced Security Testing at FEMA               FEMA-IT-12-01
FEMA-IT-11-42   Traverse Accounts Were Not Appropriately Recertified                                                   X
FEMA-IT-11-43   Lack of Adequate Configuration Management over Network Devices Supporting Financial Systems                     FEMA-IT-12-17
                Password, Patch, and Configuration Management Weaknesses Were Identified during the Vulnerability
FEMA-IT-11-44                                                                                                                   FEMA-IT-12-06
                Assessment on IFMIS, NEMIS, and Key Support Servers
FEMA-IT-11-45   Vulnerability Assessment Program for the NFIP LAN Supporting Traverse was Inadequate                   X
                Weaknesses Existed over the Configuration Patch Management Process for the NFIP LAN Supporting
FEMA-IT-11-46                                                                                                          X
                Traverse
                Weaknesses Exist over the Configuration and Testing of Backups for Servers Supporting Financial
FEMA-IT-11-47                                                                                                          X
                Applications within the Previous NEMIS Accreditation Boundary
                Key Controls over Production Servers Supporting Applications within the Former NEMIS Accreditation
FEMA-IT-11-48                                                                                                          X
                Boundary Have Not Been Implemented




                                 Information Technology Management Letter for the FEMA Component

                              of the FY 2012 Department of Homeland Security Financial Statement Audit

                                                              Page 24

ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this document, please call us at (202) 254-4100, fax your
request to (202) 254-4305, or e-mail your request to our Office of Inspector General
(OIG) Office of Public Affairs at: DHS-OIG.OfficePublicAffairs@oig.dhs.gov.

For additional information, visit our website at: www.oig.dhs.gov, or follow us on Twitter
at: @dhsoig.

OIG HOTLINE

To expedite the reporting of alleged fraud, waste, abuse or mismanagement, or any
other kinds of criminal or noncriminal misconduct relative to Department of Homeland
Security (DHS) programs and operations, please visit our website at www.oig.dhs.gov
and click on the red tab titled "Hotline" to report. You will be directed to complete and
submit an automated DHS OIG Investigative Referral Submission Form. Submission
through our website ensures that your complaint will be promptly received and
reviewed by DHS OIG.

Should you be unable to access our website, you may submit your complaint in writing
to: DHS Office of Inspector General, Attention: Office of Investigations Hotline, 245
Murray Drive, SW, Building 410/Mail Stop 2600, Washington, DC, 20528; or you may
call 1 (800) 323-8603; or fax it directly to us at (202) 254-4297.

The OIG seeks to protect the identity of each writer and caller.
